BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief in
Opposition in 21-5 7, Levi Frasier v. Christopher Evans,
et al., were sent via Next Day Service to the U.S.
Supreme Court, 3 copies by Next Day and e-mail
service to the following parties listed below, this 7th
day of October, 2021:
Jeffrey L. Fisher
Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305-8610
(650) 724-7081
jlfisher@law.stanford.edu
Counsel for Petitioner
Kristin M. Bronson
Counsel of Record
Denver City Attorney's Office
201 W. Colfax Avenue
Denver, CO 80202
(720) 913-3107
kristin. bronson@denvergov.org
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 7, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: ( 1 ~

T, d:JJ/

Notary PJ:1;, I(/ ,

~

[seal]

JOHN D. GALLAGHER
Notary Public, Slate of Ohio
My Commlllion Expires
f"ebruary 14, 2023

